2o- h£2NO.
IN THE UNITED STATES SUPREME COURT
IN THE INTEREST OF
N. S., a minor

Appeal of S. S. Moth|jf | § | I

ml

PETITION FOR WRIT OF CERTIORARI

Appeal From the Supreme Court of Pennsylvania Middle District
Denying Petition For Allowance of Appeal
Entered on April 13,2020
Docket No 53 MAL 2020

FILED
SEP 0 9 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Appellee
Lancaster County CYA
150 N Queen St
Suite 111
Lancaster Pa 17603
Tamara Hogan Esquire

Prose Appellant
S.
S
96 Farmland Rd
LeolaPa 17540
Ph 717-710-7496
Email- contact:
simplefaith4@yahoo.com

PROCEEDINGS TO THE CASE

l)lnvoluntary terminations parental rights

No 161 of 2018

granted by
the Order of Lancaster County Court of Common Pleas
Febl4,2018 where Petitoner is Lancaster County Children and
Youth Agency and Respondant is Savilla Stoltzfus (mother)

2)Appeal In The Superior Court of Pa
denied on memorandum of opinion

No 551MDA2019
Dec27, 2019

3)Petition for Allowance of Appeal In The Supreme Court of Pa
No 42 MT 2020
denied as NO 53 MAL 2020

April 13,2020

QUESTIONS PRESENTED FOR REVIEW

Is the decision to terminate parental rights Constitutional,where
the court determined that adoption to an Amish home is in the
best interest of the child, excluding certain legal requirements
for education , and the child's Constitutional Protections for the
sake of adoptive parents religion .

/

c.
1

STATEMENT OF JURISDICTION
Minors who are citizens of the U S have a right to protection of
Discrimination by the 14 th Amendment of its Constitution ,and
in termination of parental rights parents have a commanding
interest as to the justice of the decision ; under which this court
has jurisdiction to review the case. Given 90 days plus 60 in
accordance with extending of time given during covid-19 shut
down.
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

In Re: N.S. A minor

No. 53MAL 2020

Petition of S.S., Mother
Petition for Allowance of Appea from the Order of the Superior
Court
ORDER
Per Curium,
And now this 13th day of April, 2020 the petition for
Allowance of Appeal is DENIED

CONSTITUTIONAL PROVISIONS

1. 14th Amendment, No State shall enforce or make
any laws which shall abridge the privileges or
immunities of citizens of the United States

nor

deny to any person within its jurisdiction the equal
protection of the laws.
2. Satosky v Kramer 455 US 745 March 24 1982
The fundamental liberty interest of natural parents in
care and custody of their children is protected by the fourteenth
Amendment of the Constitution and does not evaporate simply
because they have not been model parents or have lost custody of
their child to the state. When the State moves to destroy
weakened bonds it must provide the parents with fundamentally
fair procedures.
A parents interest in the accuracy and justice in the termination
of his or her parental status is a commanding one.

STATEMENT OF THE CASE

Petitioner, S. S. , (hereinafter 'Mother') is the mother of
(daughter) child N. S. born January 17,2007, and is the subject
child of the case.

The Lancaster County Court of Common Pleas (Orphan's
Court Division) ruled on Feb.14,2019 to terminate Parental
Rights as to both Parents , and that it is to

N. S.'s best interest

to be adopted to Mother's sister and husband who are of the
Amish faith.

On June 16,2016 both parents were incarcerated in Bucks
County, Pennsylvania. Mother was then 45 and father was 46
years of age. Mother lived in Bucks County , Pa at that time and
father lived in Lancaster County, Pa. N.S. had been living with
her Father and several of her brothers in Lancaster County. All of
N.S.'s nine sisters lived with Mother in Bucks County, Pa.

The Parents had been through financial crisis (11/8/2018

N.T.18-22) and had been relying on help from now co-def.
Kaplan , where mother lived. Both parents and Kaplan were
arrested at the home where Mother lived and plead guilty to
charges endangering the well -fare of children. Kaplan was
convicted of sex crimes with minors living at the home.

On January 19,2018 the Lancaster County CYA petitioned
the Court to involuntarily terminate Parental Rights as to
Mother and Father. Testimony was given during the evidentiary
hearing that N.S. had undergone hardship/punishment while in
her fathers care. It is also evident that all of N.S.'s minor siblings
have been in custody of Bucks County CYA and have not been
adopted to homes of Amish relatives. Except for one brother D.S.
who is in care of Lancaster County CYA and has chosen neither to
be adopted nor to live with Amish relatives .

Mother offered testimony as to her concerns that,
because N.S. is placed with an Amish family , her daughter is not
receiving the education that Mother believes is appropriate.
Mother offered as exhibits two letters from the child to her that

demonstrate the bond between parent and child. (Respondant
Mother Exhibits 2 and 3; 11/8/2018 N. T. 54 -55)

When asked on cross-examination whether the
relationship between Mother and Child were healthy and
nurturing the case worker responded that she was not equipped
to judge the relationship having never seen interaction between
the two. The letters between Mother and Child were appropriate.
(7/18/2018 N. T.61)

At the hearing the quardian ad litum offered no
testimony, but reported to the court that he spoke with the Child
who told him she wished to be adopted by her maternal Aunt
and Uncle.

When N.S. was taken into care of the Agency she was nine
years old. Upon her wishes and the court's findings the court
decided that to adopt her to a warm amish home serves her best
interest. Mothers concerns about education for her Daughter are
left unheard. According to Wise. V Yoder the Amish education is

for the integration of the child into way of life of the Amish faith
community and by definition has no concern about the child's
education in civics or civil freedoms or advancement as to the
child. The testimony of the parents is evident to the court what
may await N.S. if she does not continue in unquestioned
obedience to the amish religion which the maternal aunt and
uncle hold; that the warmth of family relationship rests upon the
upholding of the religious tradition..
See in statement of the case for Allowance of Appeal and notes of
testimony on 11/8/2018 N.T. 18-22 Father and Mother owned a
home in Lancaster County and operated a metal working business
that at one time employed 10 workers. Father began to pose
questions about the operations of his church and in 2003 Mother
and Father were kicked out of the Amish church. As a result
Mother and father were shunned by the Amish community. The
workers ,all amish, of the business operated by father were
forced to quit their Jobs , customers of the business stopped
doiung business with Father and stopped paying accounts
receivable. By early 2009 Father and Mother had lost their
business and home to a foreclosure by the Old Order Amish

Helping Program, an Amish loan company.
Testimony was also given that Mother was incarcerated at
the time of the hearing. Within the time frame to appeal Mother
was then released from prison and applied to supplement the
record with the fact that she has been released on her minimum.
The application was denied.
The trial court Judge contained allegations in his opinion
that are not part of the testimony. See Pet. for Allow, of Appeal
The Superior Court Judge has also maintained the same
allegations in his Memorandum Opinion, appeal denied
On Petition on Allowance of Appeal p.13 REASONS RELIED
UPON FOR ALLOWANCE OF APPEAL , Mother submits that the
lower courts have not decided what is in the child's best
interests. And that Mother is understandably concerned for the
child's future that the child will be deprived of education
necessary to live a competent life in society.

Finally the Supreme Court of Pennsylvania denied the Allowance
of Appeal

REASONS RELIED UPON FOR REVIEW
1. Is the decision to terminate parental rights
Constitutional, where the court decided that adoption to
an Amish home is in the childs best interest excluding
certain legal requirements of education and the childs
Constitutional Protections from religious discrimination.
AMENDMENT XIV
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States, nor
shall any State deprive any person of life , liberty or property
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
SANTOSKY v KRAMER 455 US 745
A parents interest in the accuracy and justice of the decision to
terminate his or her parental status is a commanding one.

Parental Rights may be involuntarily terminated where the
requirements of any one subsection of Section 2511 (a) is satisfied
along with the consideration with subsection (b).

Section 2511 (b) requires that the court engage in a best interests
of the child analysis .

This case is unique because the adoptive parents hold a standard
of religion that precedents the Constitututional Freedoms and
Protections given to individuals by the Constitution of the US.
In Wise v Yoder 406 US 205 Dec.15 1972, the education is
preserved for the sole purpose of preservation of the Amish
religion. Today the court has made exceptions to the general
education requirements for the child on behalf of the adoptive
parents Amish religious beliefs subsequently altering the life of
the child very substantially from her siblings not in Amish
homes. If, returning to Mother the state would then require the
child N.S. to engage in a very different outlook
because Mother does not hold the Amish religious tenants.
The Amish Education mentioned in Wise v Yoder, which the
court has accepted to be in the best interest of the child is solely
for the sake of religious advancement and subsequently the best
interest of the child is not solely or individually considered.
Testimony is clear that the parents experienced that there is no

room for individual advancement and or interests of individual
curiosity. The Court has heard these things many times over but
then turn a deaf ear to the reality that N.S. has no more
individual freedoms to develop and advance in life than what is
accepted as upbuilding to the ways of Amish religion.
The way and culture and education of the adoptive parents is
forwarding her life to unquestioned obedience. Therein she will
make commitments for life as a minor. The community by its
firm beliefs hold it scriptural and as their active duty to
discriminate against those individuals no longer holding their
commitments. (as mentioned in testimony provided)
The court has at one point stated that she has a choice, which is
evident that the other choice is then to accept the discrimination
by her adoptive parents just as her parents now endure from
their family. The Mother strongly argues that it is
unconstitutional for the court to adopt her Daughter into a home
where the education and lifestyle is void of studies and teachings
on civics and where individual freedoms as by the Constitution of
the US are not upheld.

CONCLUSION
For the foregoing reasons Mother presents the case of her
Daughter to this Honourable Court. The Protections of the
liberties involved may be exercised to the benefit of its citizens
in justice thereof.
Respestfully submitted
S.

S'

Pro se

Date July 9,2020

